HHS/OIG, Audit -"Review of Employees' Retirement System Of The State of Hawaii Pension Costs,"(A-09-04-00039)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Employees' Retirement System Of The State of Hawaii Pension Costs," (A-09-04-00039)
June 4, 2004
Complete
Text of Report is available in PDF format (318 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The State appropriately charged the Federal Government for pension expenses for the 2-year period July 1, 2001 through
June 30, 2003 in accordance with the Office of Management and Budget (OMB) Circular A-87.  The States retirement
contribution rates were based on an actuarial projection method that complied with Federal regulations.  In addition,
ERS properly used funds designated as retirement contributions to pay pensions and related administrative costs.